USCA Case #20-7001

Filed: 04/15/2020

Document #1838167

Page 1 of 2

pInliBb States (Hour! of JVppBnls
For The District of Columbia Circuit

September Term, 2019

No. 20-7001

1:19-cv-03349-UNA
Filed On: April 15, 2020
Helga G. Suarez Clark,
Appellant
v.
Peru Republic,
Appellee

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE:

Tatel and Millett, Circuit Judges, and Sentelle, Senior Circuit
Judge
JUDGMENT

This appeal was considered on the record from the United States District Court
for the District of Columbia and on the brief filed by appellant. See Fed. R. App. P.
34(a)(2); D.C. Cir. Rule 34(j). Upon consideration of the foregoing', and the motion to
appoint counsel, it is
ORDERED that the motion to appoint counsel be denied. In civil cases,
appellants are not entitled to appointment of counsel when they have not demonstrated
sufficient likelihood of success on the merits. It is
FURTHER ORDERED AND ADJUDGED that the district court’s order filed
November 27, 2019 be affirmed. The district court correctly dismissed the case without
prejudice for failure to meet the minimum pleading standards of Federal Rule of Civil
Procedure 8(a). Appellant’s complaint failed to set forth “a short and plain statement” of
the claims showing that she is entitled to relief. Fed. R. Civ. P. 8(a); see Ashcroft v.
Iqbal. 556 U.S. 662, 677-78 (2009).

USCA Case #20-7001

Filed: 04/15/2020

Document #1838167

Page 2 of 2

plmtefr Jiiates fflonri of JVppsals
For The District of Columbia Circuit

September Term, 2019

No. 20-7001

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

Is/
Daniel J. Reidy
Deputy Clerk

USCA Case #18-7182

Filed: 04/02/2019

Document #1780619

Page 1 of 2

JSmtsb Jiiaieg (Enrtri of JKppials
For The District of Columbia Circuit

September Term, 2018

No. 18-7182

„ 1:18-CV-01460-UN A
Filed On: April 2, 2019
Helga G. Suarez Clark,
Appellant
v.
Carlos Castellon Cueva, et al.,
Appellees
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE:

Rogers and Griffith, Circuit Judges, and Sentelle, Senior Circuit
Judge
JUDGMENT

This appeal was considered on the record from the United States District Court
for the District of Columbia and on the brief, supplement, and appendix filed by
appellant. See Fed. R. App. P. 34(a)(2); D.C. Cir. Rule 34(j). Upon consideration of
the foregoing, the motion to appoint counsel, and the motion for financial assistance, it
is
ORDERED that the motion to appoint counsel be denied. In civil cases,
appellants are not entitled to appointment of counsel when they have not demonstrated
sufficient likelihood of success on the merits. It is
FURTHER ORDERED that the motion for financial assistance be denied. It is
FURTHER ORDERED AND ADJUDGED that the district court's order filed
November 5, 2018 be affirmed. The district court granted appellant’s request for an
extension of time to file a second amended complaint, which she did. The district court
properly dismissed this case without prejudice, because appellant’s second amended
complaint failed to provide “a short and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a); see Ashcroft v. Iqbal, 556 U.S. 662,
677-78 (2009). Appellant did not request, nor was she granted, leave to file a third

USCA Case #18-7182

Filed: 04/02/2019

Document #1780619

Page 2 of 2

JStttizb Jiiates fflfluri of
For The District of Columbia Circuit

September Term, 2018

No. 18-7182

amended complaint. However, the dismissal of this case without prejudice will allow
appellant to file a new complaint that meets the requirements of Rule 8(a). See
Ciralsky v. CIA, 355 F.3d 661, 666 (D.C. Cir. 2004).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

{

Page 2
i
*

Is/
Ken Meadows
Deputy Clerk

USCA Case #20-7001

Filed: 06/03/2020

Document #1845515

Page 1 of 1

^hxxizb plates dLcmri of J^ppeals
For The District of Columbia Circuit

September Term, 2019

No. 20-7001

1:19-cv-03349-UNA
Filed On: June 3, 2020
Helga G. Suarez Clark,
Appellant
v.
Peru Republic,
Appellee

BEFORE:

Tatel and Millett, Circuit Judges, and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

USCA Case #20-7001

Filed: 06/03/2020

Document #1845517

jMmisb

Page 1 of 1

(&xmxt of appeals

For The District of Columbia Circuit

September Term, 2019

No. 20-7001

1:19-CV-03349-U N A
Filed On: June 3, 2020
Helga G. Suarez Clark,
Appellant
v.
Peru Republic,
Appellee

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges,
and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

Case l:19-cv-03349-UNA Document 5 Filed 11/27/19: Page 1 of 2
i.

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
HELGA SUAREZ CLARK,

Clerk, U.S. District and
Bankruptcy Courts

)
)
)
)

Plaintiff,

)

v.

NOV 2 7 2019

Civil Action No: 1:19-'cv-03 349 (UNA)

)
)
)
)

PERU REPUBLIC, et al,
Defendants.

MEMORANDUM OPINION
This matter is before the court on its initial review of plaintiffs pro se complaint and
application for leave to proceed in forma pauperis. The court will grant the in forma pauperis
application and dismiss the case because the complaint fails to meet the minimal pleading

U

requirements of Rule 8(a) of the Federal Rules of Civil Procedure.
Pro se litigants must comply with the Federal Rules of'Civil Procedure. Jarrell v. Tisch,
656 F. Supp. 237, 239 (D.D.C. 1987). Rule 8(a) of the Federal Rules of Civil Procedure requires
complaints to contain “(1) a short and plain statement of the grounds for the court’s jurisdiction
[and] (2) a short and plain statement of the claim shewing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a); see Ashcroft v. Iqbal, 556 U.S. 662,678-79 (2009); Ciralsky v. CIA, 355 F.3d
661, 668-71 (D.C. Cir. 2004). The Rule 8 standard ensures that defendants receive fair notice of
the claim being asserted so that they can prepare a responsive answer and an adequate defense and
determine whether the doctrine of res judicata applies. Brown v. Califano, 75 F.R.D. 497, 498
(D.D.C. 1977). A complaint “that is excessively long, rambling, disjointed, incoherent, or full of
irrelevant and confusing material will patently fail [Rule 8(a)’s] standard, and so will a complaint
that contains an untidy assortment of claims that are neither plainly nor concisely stated, nor
I

i

t

Case l:19-cv-03349-UNA Document 5 Filed 11/27/19 Page 2 of 2

meaningfully distinguished from bold conclusions, sharp harangues and personal comments.”
Jiggetts v. D.C., 319 F.R.D. 408, 413 (D.D.C. 2017), aff’dsub nom. Cooper v. D.C., No. 17-7021,
2017 WL 5664737 (D.C. Cir. Nov. 1, 2017). The instant complaint falls within this category.
Plaintiff,, a resident of Peru, sues the country of Peru and numerous individual defendants.
The prolix complaint and its accompanying exhibits total 298 pages. The complaint ranges in
topics, including, but not limited to: medical malpractice, torture, discrimination, recognition of
international educational degrees, conspiracy, legal malpractice, theft, loss of personal property,
child custody disputes; reckless endangerment, personal injury, kidnapping, involuntary
commitment, fraud, disability claims, and false arrest and imprisonment. These disparate accounts
range from plaintiffs early childhood to date. Plaintiffs claimed damages, as far as they can be
understood, include: reinstatement and amendment of her “cancelled birth certificate in Peru,”
forced resignation of the entire staff of the Peruvian government and police force, revalidation of
her college degrees by the Peruvian government, monetary damages, and a mandate to the UN to
[sic] “answer repeated emails calls asking appointment as independent expert in human rights[.]”
The complaint fails to meet the minimum pleading standard set forth in Rule 8(a). The
ambiguous and rambling allegations comprising the complaint fail to provide adequate notice of a
claim. The causes of action, if any, are completely undefined. The pleading also fails to set forth
allegations with respect to this court’s jurisdiction, or a valid basis for an award of damages.
Therefore, the court will dismiss the complaint. An order consistent with this memorandum
opinion is issued separately.
: November <=2^/ : ,2019
Date:

United Spates District Judge

2

i
Case l:19-cv-03349-UNA Document 6 Filed 11/27/19 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
HELGA SUAREZ CLARK,

Noy 2 7 2019
Clerk, U.S. District and
Bankruptcy Courts

)
)

Plaintiff,

)
)

v.

)

Civil Action No: 1:19-cv-03349 (UNA)

)

PERU REPUBLIC, et al,

)
)

Defendants.

)

• i

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is
ORDERED that plaintiffs application to proceed in forma pauperis [2] is GRANTED,
and if is further

!

ORDERED that the complaint [1] and this case are DISMISSED without prejudice, and
it is further
ORDERED that plaintiffs motion for CM/ECF password [3] and motion to appoint
4

counsel [4] are DENIED as moot.
This is a final appealable Order.

Date:

November ,26,2019

Unite^mates District Judge

i

3

IV. JURISDICTION AND VENUE
13

NYSD court judge C.McMahon,ruled with me(l8cv01740)

that this Court is the only proper venue according to 28 U.S.C.s.1391
(f)(4);and that it has jurisdiction for TVPA and Antiterrorist claims
simultaneously against Peru Republic and other peruvian officials and
nationals,and others(28 U.S.C. § 1391 e),t.28 s.1404 a)),with subjectmatter jurisdiction over Plaintiff action personal jurisdiction over
Defendants pursuant to t.42 s.1983 civil action for deprivation of rights
under color of law; Anti-Terrorism Act, 18 U.S.C. § 2333, et
seq.,t.28U.S.C.§1330,1331,1603,1605A,1605a3,5,Torture

Victim

Protection Act,Pub. L. No. 102-256, 106 Stat. 73 (1992), note following 28
U.S.C. § 1350;mentionned statutes, with jurisdiction in case offenses
perpetrated against American.Plaintiff has afforded Defendants a
reasonable opportunity to arbitrate the claims in this action as required
under 28 U.S.C. § 1605A(a) in accordance with accepted international
rules .
V.

SHORT AND PLAIN STATEMENT OF CLAIMS AGAINST

DEFENDANTS(A 25 PP.AMENDED COMPLAINT.AS RESUME.MAY
BE FOUND ON DOCKET DC CIRCUIT 18 1460.FILING 12 17 2018)
14

1993 -pre sent: discrimination, torture. inhumane

degrading

treatment by Peru ministry of foreign relations(Ministerio de Relaciones
Exteriores RREE.gob.ne) and civil registry agents(RENIEC.gob.pe).

